NO.

IN THE SUPREME COURT OF THE UNITED STATES
ANDRE MARTEL WINN,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

STEVEN G. KALAR
Federal Public Defender
JOHN PAUL REICHMUTH*
ROBIN PACKEL
Assistant Federal Public Defenders
Office of the Federal Public Defender
for the Northern District of California
Oakland Branch
1301 Clay Street, Suite 1350N
Oakland, CA 94612
(510) 637-3500
*Counsel of Record

QUESTIONS PRESENTED FOR REVIEW
1.

Whether the Ninth Circuit's application of the inevitable discovery

exception—without requiring any factual basis to support it—is contrary to this
Court's precedents and so far departs from the accepted and usual course of judicial
proceedings as to call for the exercise of this Court's supervisory powers.
2.

Whether the Ninth Circuit's validation of a warrant authorizing the

search for and seizure of all electronic devices within a residence, without requiring
that they be connected to any suspect or criminal activity, based only the observed
presence of a suspect at that residence, is contrary to this Court's precedents and
the decision of the Court of Appeals for the D.C. Circuit in United States v. Griffith,
867 F.3d 1265 (D.C. Cir. 2017).

INTERESTED PARTIES
There are no parties to the proceeding other than those named in the caption.
DIRECTLY RELATED LOWER-COURT PROCEEDINGS

United States v. Winn, No. 16-cr-00516 HSG (N.D. Cal. Apr. 16, 2018)
United States v. Winn, No. 18-10473 (9th Cir. May 1, 2020)

2

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

2

INTERESTED PARTIES

2

PETITION FOR A WRIT OF CERTIORARI

6

OPINIONS BELOW

6

STATEMENT OF JURISDICTION

6

CONSTITUTIONAL PROVISIONS INVOLVED

6

INTRODUCTION

7

STATEMENT OF THE CASE

8

I.

The district court upheld the searches and seizures

10

II. The Ninth Circuit upheld the searches and seizures

11

III. Judge Berzon dissented and would have reheard the case

12

REASONS FOR GRANTING THE WRIT

13

IV. Waiving the government's burden to prove inevitable discovery, without
explanation, so far departed from the accepted and usual course of judicial
proceedings as to call for the exercise of this Court's supervisory powers
14
V. This case creates a circuit split about the permissibility of warrants
authorizing seizures of all electronic devices, without regard to ownership or
likelihood of presence, based on the brief appearance of a single non-resident
suspect at the location.
17
VI. This case presents a good vehicle for resolving the conflicts
CONCLUSION

22
23

3

TABLE OF AUTHORITIES
Federal Cases

Page(s)

Collins v. Virginia,
138 S. Ct. 1663 (2018)

17

Franks v. Delaware,
438 U.S. 154 (1978)

10

Matter of Search Warrant Application for the Search of a Townhome Unit,
2020 WL 1914769 (N.D. Ill. Apr. 20, 2020)

19

Nix v. Williams,
467 U.S. 431 (1984)

15, 22

Riley v. California,
573 U.S. 373 (2014)

17, 19

United States v. Bah,
794 F.3d 617 (6th Cir. 2015)

11

United States v. Boatwright,
822 F.2d 862 (9th Cir. 1987)

16

United States v. DAndrea,
648 F.3d 1 (1st Cir. 2011)

16

United States v. Griffith,
867 F.3d 1265 (D.C. Cir. 2017)

passim

United States v. Hartz,
458 F.3d 1011 (9th Cir. 2006)

15

United States v. Kennedy,
61 F.3d 494 (6th Cir. 1995)

17

United States v. Lopez - Soto,
205 F.3d 1101, 1107 (9th Cir. 2000)

16, 17

United States v. Ramirez-Sandoval,
872 F.2d 1392 (9th Cir. 1989)

16, 17

United States v. Satterfield,
743 F.2d 827 (11th Cir. 1984)

16

United States v. Wagner,
951 F.3d 1232 (10th Cir. 2020)

21
4

Federal Statutes
28 U.S.C. § 1254(1)

8

5

PETITION FOR A WRIT OF CERTIORARI
Andre Martel Winn respectfully petitions this Court for a writ of certiorari to
review the judgment of the United States Court of Appeals for the Ninth Circuit.

OPINIONS BELOW
The district court's order denying Winn's motion to suppress is attached as
Appendix ["App."] 10-22. The Ninth Circuit's memorandum affirming the denial of
Mr. Winn's motion to suppress and his conviction is attached at App. 1-9.

STATEMENT OF JURISDICTION
This Court has jurisdiction under 28 U.S.C. § 1254(1). The Ninth Circuit
entered its judgment in favor of respondent on May 1, 2020, with Judge Berzon
dissenting. App. 1, 7. It denied Winn's petition for rehearing and rehearing en
banc on July 22, 2020, with Judge Berzon voting to grant panel rehearing. App 23.
This petition is timely under S. Ct. R. 13.3 and this Court's Order of March 19, 2020
regarding filing deadlines.

CONSTITUTIONAL PROVISIONS INVOLVED
The Fourth Amendment guarantees freedom from unreasonable searches and
seizures:
The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly describing the place
to be searched, and the persons or things to be seized.
6

INTRODUCTION
Officers in this case obtained a warrant to seize all the electronic devices from a
residence at which a crime suspect had been briefly observed, even though the
suspect had already been arrested and his phone had been seized. Upon entering
the home with the warrant, the officers searched Winn, a non-suspect who was the
resident of the home, and seized his phone. Further search of the home revealed
contraband, and the non-suspect, Winn, was arrested. In total disregard of this
Court's inevitable discovery jurisprudence, the Ninth Circuit merely presumed that
Winn would have been arrested and his phone seized incident to arrest based on the
post-search probable cause, relieving the government of any burden to show what
investigative steps were being taken, or routinely would have been taken, apart
from the illegal search and seizure. The Ninth Circuit held in the alternative that
probable cause existed for the wholesale electronic device search and seizure clause,
in conflict with United States v. Griffith, 867 F.3d 1265, 1268 (D.C. Cir. 2017). In so
doing, the Ninth Circuit and the district court endorsed an interpretation of the
Fourth Amendment that "would verge on authorizing a search of a person's home
almost anytime there is probable cause to suspect her of a crime." Id. at 1275.
Based on the clear departure from Fourth Amendment precedent and the critical
importance of warrants purporting to authorize residential searches for electronic
devices without proof of their likely presence or requirements that they be
connected to the criminal activity being investigated, this Court should grant the
petition.

7

STATEMENT OF THE CASE
Local police ["SLPD"1 obtained a state warrant on January 20, 2016, to
search an apartment in Oakland, California, as well as a car owned or under the
control of James Williams, and a phone that they had on that date "located on the
person of WILLAMS during his arrest." App. 24-25. The affidavit supporting the
warrant explained that SLPD was investigating a shooting that had occurred at a
mall on January 14, 2016, six days earlier. App. 28. James Williams, a gang
member, was a suspect. App. 28-29. SLPD had learned Williams' cell phone
number and obtained a state warrant on January 17, 2016, for "for 30 days of
continuous GPS tracking of WILLIAMS cellular phone." App. 29. From that
tracking, SLPD determined that Williams' phone had been in the area of a specified
intersection in Oakland, California. Id. With "several surveillances in the area,"
SLPD "ultimately located the apartment." Id
On January 19, 2016, at 9 p.m., police surveilling the apartment saw
Williams "exit the [apartment] door, look around the area, and reenter the door,
securing it." App. 30. The next morning at 830, surveilling officers saw Williams
leave the apartment. Id. They arrested him elsewhere and seized a cell phone
"located on his person." Id.
The warrant for the apartment authorized the seizure of evidence of criminal
activity or gang association; clothing consistent with that worn during the shooting;
identification and location information of people who may be associated with
Williams; indicia "tend[ing] to establish the identity of person[s] exercising

8

dominion and control" of the apartment; guns; photographs of the apartment; and
all electronic devices, even though Williams' phone had already been taken from
him upon arrest. App. 26. The warrant did not authorize the search of Williams' or
anybody else's person.
The apartment searched based on the state warrant was Winn's apartment,
not Williams'. App. 2. Even though Winn was not suspected in the investigation or
referenced in the warrant affidavit, SLPD seized Winn's cell phone from his person
pursuant to the warrant's broad electronic devices provision. App. 13. After the
seizure, they found firearms and cocaine, which gave them probable cause to arrest
Winn. They later searched his phone without a warrant. App. 5. SLPD then
provided Winn's phone and the contents they had illegally downloaded to the FBI.
App. 15.
The FBI had determined that two guns that had been sold in Nevada on
January 19, 2016, were among the guns located during the search of Winn's
apartment. App. 38. The FBI was "interested" in Winn's phone and other evidence
seized by SLPD in its investigation of the mall shooting. App. 39. Approximately a
month after receiving Winn's phone and its downloaded contents from SLPD -- and
after viewing the downloaded contents -- the FBI obtained a federal warrant to
search Winn's phone. App. 39-41. The affidavit stated that its information was
"'not derived from any of the recovered contents of the Subject Telephone." App. 15
(quoting affidavit).

9

I.

The district court upheld the searches and seizures
The district court rejected Winn's challenges to the legality of SLPD's search

of his apartment and seizure and search of his cell phone and the FBI's subsequent
search of his cell phone. App. 10. The warrant was supported by probable cause to
search Winn's home because SLPD "believ[ed] it was the home of James Williams,"
and that belief was supported by the GPS tracking that placed Williams in the
vicinity of the apartment as of January 17 and SLPD's observations of Williams at
the apartment on the evening of January 19 and the morning of January 20. App.
12. "On this basis, the SLPD concluded that Williams `[had] dominion and control
of the residence and thus [would] have property related to this investigation inside
it.' Id. (quoting affidavit; brackets in original).
The district court rejected Winn's argument for a hearing under Franks v.

Delaware, 438 U.S. 154 (1978), based on SLPD knowing that the resident of the
apartment was not Williams. App. 13-14. The district court discounted video
evidence of one of the searching officers telling Winn, "We have a search warrant for
your residence, for your cousin." App. 14. It concluded that the omission of any
such knowledge was not intentional or reckless and that the addition of this
information would not have negated probable cause. Id.
The district court held that SLPD properly seized Winn's phone based on a
sufficiently specific warrant. App. 13. The warrant identified "cell phones" as
property to be seized; this description was sufficiently specific "in light of the
[affidavit's] explanation regarding the importance of cell phones in criminal
investigations." Id.
10

Finally, the district court held that the FBI's later warrant search of Winn's
phone was not tainted by SLPD's prior warrantless search, even though the FBI
affiant had viewed the contents of the phone before seeking the federal warrant.
App. 14-17. It accepted the affiant's statement that it was his practice to obtain a
federal warrant even if an item may have been searched by local police and that his
affidavit for the federal warrant "'did not include any information derived from
SLPD's download of the phone or his review of a copy of that download." App. 15
(quoting declaration; brackets omitted). Because the federal affiant "expressly
disclaimed reliance on the SLPD's search in its application for a warrant," the goodfaith exception did not come into play. App. 16-17. Moreover, the federal affiant
was a different person from the officer who conducted the initial illegal search.
App. 17 (citing United States v. Bah, 794 F.3d 617 (6th Cir. 2015)).
II.

The Ninth Circuit upheld the searches and seizures
The two-judge Ninth Circuit majority upheld the challenged searches and

seizures, although on different bases than the district court. It concluded that
SLPD had probable cause to search Winn's apartment based on Williams' being "an
overnight guest mere days after the alleged shooting." App. 3. SLPD was not
reckless in omitting the non-material information that the apartment belonged not
to Williams but to Winn. App. 4-5. The affidavit sufficiently described the cell
phones to be seized, "and there was probable cause that the cell phones would
contain evidence relating to the shooting incident." App. 4. Because SLPD would
have arrested Winn and searched him incident to arrest when they found guns and
11

cocaine in the apartment, the inevitable-discovery exception excused their seizure of
his phone from his person. App. 5. Finally, the majority held that the federal
warrant to search Winn's phone was not tainted by SLPD's warrantless search of
the phone because the seized firearms would have led the FBI to obtain a warrant
even had SLPD not told the FBI about and provided it with the contents of the
phone. App. 5-6.

III. Judge Berzon dissented and would have reheard the case
Judge Berzon, dissenting, concluded that SLPD's warrant to search Winn's
apartment lacked probable cause. "[T]he information contained in the warrant
affidavit was insufficient to establish that Williams had a sufficient connection to
the apartment to provide probable cause for a broad search of the home to find
items connected to Williams's recent crime." App. 7. Not only was the evidence
connecting Williams to Winn's apartment weaker than that in other cases in which
the suspects were considered mere "casual social guests," "the reasons given in the
affidavit for expecting to find evidence of Williams's crime in Winn's apartment
were tied repeatedly to the affidavit's assertions that the apartment was Williams's
'residence." App. 8 (internal quotation marks omitted).
Judge Berzon also determined that the FBI's phone search was tainted by
SLPD's search of Winn's apartment, without which the SLPD would not have had
Winn's phone to give to the FBI. App. 8-9. Because SLPD failed to inform the
magistrate "that the basis for their belief that Williams resided in the apartment to

12

be searched was tenuous," they did not act in good faith, and the good-faith
exception did not apply. App. 9.

REASONS FOR GRANTING THE WRIT
The Court should grant review because the Ninth Circuit's application of the
inevitable discovery rule without any factual support in the record represents a
fundamental disregard of precedent warranting summary reversal. This case also
presents an important legal issue demanding clarification: whether the Fourth
Amendment prohibits the wholesale search for, and seizure of, all electronic devices
at a location, including from the persons of non-suspects, based only on the fact of a
suspect having been observed at the residence. The D.C. Circuit has clearly held
such a warrant violates the Constitution. Griffith, 867 F.3d at 1275 (assuming,
without proof, that every suspect has a cellphone "would verge on authorizing a
search of a person's home almost anytime there is probable cause to suspect her of a
crime."). The opinion of the divided panel below is inconsistent with that holding.
Because of the ubiquitous nature of cell phones, their evidentiary significance, and
their vulnerability to significant invasions of privacy, this issue is of paramount
importance. Courts and police officers should be given guidance as to when and
which cellphones may be seized from the home and reminded that the widespread
use of cellphones and the vast quantities of information they contain do not negate
the bedrock principles that warrants must be based on probable cause that an item
is likely to be found at a location and limited to those items relevant to the
investigation.
13

IV.

Waiving the government's burden to prove inevitable discovery, without
explanation, so far departed from the accepted and usual course of judicial
proceedings as to call for the exercise of this Court's supervisory powers.
Remarkably, the Ninth Circuit upheld SLPD's seizure of Winn's cell phone

primarily based on the inevitable discovery exception to the exclusionary rule.'
App. 5. Neither the government nor the Ninth Circuit majority pointed to any facts
in the record to show what actions the SLPD officers would have taken had the
warrant not authorized the seizure of all cell phones, regardless of their connection
to the case. The SLPD officer who seized the phone from Winn said he did so during
a pat-search before he searched the apartment and "pursuant to the search
warrant." App. 34. Although SLPD arrested Winn "after the search of the
apartment," based on firearms, ammunition and cocaine found during the search,

Id., the officer was silent as to SLPD's particular interest in Winn's phone, what the
officer would have done had he not searched Winn and illegally seized his phone,
and SLPD's practices with respect to booking phones. Id. The government failed to
present any evidence whatsoever — no testimony, policies, practices, or protocols — to
prove that officers necessarily would have arrested and searched Winn and booked
his phone into evidence the moment they found contraband in his bedroom. There
was no attempt to establish the necessary factual basis for the inevitable discovery
exception.

The district court's avoidance of inevitable discovery perhaps was based on the
government's failure to provide any supporting facts, Ninth Circuit Excerpts of
Record ["EW] 204-05, if not its explicit disavowal of reliance on the exception during
argument on the motion. ER 18.
14

It is a blatant violation of the burden established in Nix v. Williams, 467 U.S.
431 (1984), to premise the application of the inevitable discovery rule solely on the
probable cause developed after the illegal search rather than on a factual analysis of
the likely course of the investigation had there been no violation. But the panel did
just that, upholding the introduction of the phone based on its own factual
assumption that, after discovering guns, ammunition and cocaine in Winn's room,
SLPD surely "would have arrested Winn and searched him incident to arrest" and
booked the phone. App. at 5 (emphasis added). This was more than a mere
misapplication of the law. It was a conscious disregard of the test established by
this Court.
The panel not only failed to observe the narrow purpose and scope of the
inevitable discovery doctrine; it departed from the accepted and usual course of
judicial proceedings by speculating as to what officers might have done with the
probable cause they developed.2 Since 1984, a court's decision to forgive an illegal
search under the doctrine "involves no speculative elements but focuses on

demonstrated historical facts capable of ready verification." Nix, 467 U.S. at 444
n.5 (emphases added). Here, the panel's observation that "SLPD would have been

entitled to secure the phone" incident to his arrest, App. 5 (emphasis added),
explicitly alludes to a test that is directly contrary to Nix and Ninth Circuit

Further establishing the nature of its departure from established judicial process,
the panel cited no inevitable discovery cases. App. 5. The only case it did cite,
United States v. Hartz, 458 F.3d 1011 (9th Cir. 2006), relates to the scope of the
search incident to arrest doctrine.

2

15

opinions, which previously had not hesitated even to find clear error in a district
court's factual finding of inevitable discovery in the absence of such facts. United

States v. Lopez-Soto, 205 F.3d 1101, 1107 (9th Cir. 2000); United States v. RamirezSandoval, 872 F.2d 1392, 1400 (9th Cir. 1989) ("[M]erely assum[ingl" an officer
would have acted in a way he was "entitled" to is insufficient to meet the
government's factual burden) (emphasis omitted)). The panel opinion, equating
entitlement to arrest with inevitable discovery, departs from decades of precedent
and proceedings.
Even if the panel's opinion had contained a factual basis and could thus be
squared with the Ninth Circuit's own precedent, it would conflict with that of other
circuits. Numerous courts have held that "the illegality can be cured" by the
inevitable discovery doctrine "only if the police possessed and were pursuing a
lawful means of discovery at the time the illegality occurred." United States v,

Satterfield, 743 F.2d 827, 846 (11th Cir. 1985) (emphasis added; citing cases).3 The
Ninth Circuit has eschewed such a rigid rule, suggesting that the doctrine should
cover not only simultaneous independent investigations but also "instances where,
based on the historical facts, inevitability is demonstrated in such a compelling way
that operation of the exclusionary rule is a mechanical and entirely unrealistic bar."

United States v. Boatwrig.ht, 822 F.2d 862, 864 (9th Cir. 1987) (noting that, in such
an instance, the doctrine could apply "whether or not two independent

3 A circuit split remains on this issue. See United States v. D'Andrea, 648 F.3d 1,
12 n.16 (1st Cir. 2011) (noting split and citing cases).

16

investigations were in progress"); see also United States v. Kennedy, 61 F.3d 494,
499 (6th Cir. 1995) (holding that "compelling facts" could overcome the usual
requirement of two independent investigations). But such compelling facts typically
involve "routine" required procedures (such as an inventory search of an alreadyimpounded car) or evidence that the legal avenue was the "only available procedural
step." Ramirez-Sandoval, 872 F.2d at 1400; accord Lopez-Soto, 205 F.3d at 1107.
The opinion in this case merely adds to this lack of uniformity.
The Ninth Circuit's inevitable discovery application in this case starkly relieved
the government of a substantive burden clearly imposed by this Court. It should be
summarily reversed.
V.

This case creates a circuit split about the permissibility of warrants
authorizing seizures of all electronic devices, without regard to ownership or
likelihood of presence, based on the brief appearance of a single non-resident
suspect at the location.
The Ninth Circuit also sanctioned a warrant for the seizure of all electronic

devices within the residence, without probable cause that the suspect likely
maintained electronic devices there and without any limitation on which electronic
devices could be seized. Protecting the privacy of the home has long been at the
very heart of the Fourth Amendment. Collins v. Virginia, 138 S. Ct. 1663, 1670
(2018). This Court more recently has confirmed the heightened privacy interests in
the contents of cell phones and the corresponding constitutional protection to which
they are entitled. "A phone not only contains in digital form many sensitive records
previously found in the home; it also contains a broad array of private information
never found in a home in any form -- unless the phone is." Riley v. California, 573
17

U.S. 373, 396-97 (2014). By upholding the seizure from Winn's apartment of all cell
phones based solely on allegations of prior criminal conduct by a non-resident, App.
4 -- whose own cell phone the police already had seized, App. 25 -- the Ninth Circuit
in this case not only failed to give sufficient weight to these Fourth Amendment
interests but also created a circuit split.
In Griffith, the D.C. Circuit rejected the argument that "whenever officers have
reason to suspect a person of involvement in a crime, they have probable cause to
search his home for cell phones because he might own one and it might contain
relevant evidence." 867 F.3d at 1268. The warrant in Griffith
authorized officers to search for and seize all cell phones and other
electronic devices in Griffith's residence. The supporting affidavit,
however, offered almost no reason to suspect that Griffith in fact
owned a cell phone, or that any phone or other device containing
incriminating information would be found in his apartment. In our
view, the fact that most people now carry a cell phone was not enough
to justify an intrusive search of a place lying at the center of the
Fourth Amendment's protections -- a home -- for any phone Griffith
might own.

Id.
According to the warrant affidavit in Griffith, the defendant was -- like
Williams in this case -- a suspected gang member and involved in a shooting. Id. at
1268-69, 1271. It also included, as here, a statement based on the affiant's training
and experience that gang members involved in criminal activity communicate and
share information via cell phones and other electronic devices. Id. at 1269. The
judge issued a warrant to search the suspect's girlfriend's apartment, where there
was evidence that he was living, for "all electronic devices." Id. at 1269-70. Based
on the warrant, police seized several cell phones found in the apartment. Id. at
18

1270. Given that the affidavit, like the one at issue in this case, "provided virtually
no reason to suspect that Griffith in fact owned a cell phone, let alone that any
phone belonging to him and containing incriminating information would be found in
the residence," yet "the warrant authorized the wholesale seizure of all electronic
devices discovered in the apartment, including items owned by third parties," "the
warrant was unsupported by probable cause and unduly broad in its reach." Id. at
1270-71.
At least one district court has followed Griffith in requiring more than
assumptions about cell phones and allegations of criminal conduct against a suspect
connected with a residence to justify the search of the residence for and blanket
seizure of all cell phones found in it. See Matter of Search Warrant Application for

the Search of a Townhome Unit, 2020 WL 1914769, at "3-4 (N.D. Ill. Apr. 20, 2020)
(unpublished) (requiring warrant authorizing police to seize electronic devices
located in residence to include limitation that devices be "connected to the subject
offense or in the possession of the target of the offense"; "In this Court's view, Riley
and Griffith counsel caution before a court authorizes seizure of all electronic
devices from a premises.").
The lower courts in this case took the opposite approach on facts that are even
less supportive of probable cause than Griffith found inadequate to support even a
good-faith reliance on the warrant. As SLPD's affidavit here noted, police had
found a cell phone on Williams when they arrested him on the day the warrant was
requested and obtained. App. 30. So even the assumption "that most people today

19

own a cell phone," which Griffith held was not sufficient, 867 F.3d at 1272-73, would
not have been enough here, where there would have had to have been a basis for
believing Williams had cell phones in the apartment in addition to the one police

had seized from him that day.
Griffith summed up the breadth of the proposition it was rejecting: "because
nearly everyone now carries a cell phone, and because a phone frequently contains
all sorts of information about the owner's daily activities, a person's suspected
involvement in a crime ordinarily justifies searching her home for any cell phones,
regardless of whether there is any indication that she in fact owns one." Id. at
1275. Accepting this proposition "would verge on authorizing a search of a person's
home almost anytime there is probable cause to suspect her of a crime." Id. The
warrant here went even further. There was no reason to believe here, as there was
in Griffith, that the searched apartment was Williams' "home," or any other place
where a second cell phone connected to him or in which evidence of his suspected
criminal activity, six days earlier, might be found. Thus, accepting the search here
would effectively authorize a search of any location, and the seizure of any cell
phone within that location, whenever a person suspected of criminal activity has
been seen at the location.
As in Griffith, the warrant here also was "overbr[oad] in allowing the seizure of
all electronic devices found in the residence." 867 F.3d at 1275. By "broadly
authoriz[ing] seizure of all cell phones and electronic devices, without regard to
ownership," the warrant's "sweep far outstripped the police's proffered justification

20

for entering the home," including to obtain evidence related to Williams' criminal
activity. Id. at 1276. Griffith concluded that the affidavit was so lacking in
probable cause that the good-faith exception did not apply. Id. at 1279. Yet the
lower courts here upheld the warrant to seize from Winn's apartment all cell
phones. App. 4, 13; see also United States v. Wagner, 951 F.3d 1232, 1248 n.14
(10th Cir. 2020) (rejecting overbreadth challenge to warrant that allowed police to
seize any computer at residence, regardless of ownership: in contrast to Griffith,
agents there "had probable cause to search Mr. Wagner's residence for any device
that soldiermike could have used to access Playpen or child pornography. Because
soldiermike's identity was unknown, the Residence Warrant was not overbroad for
failure to limit seizure to devices Mr. Wagner owned.").
The police here seized Winn's cell phone from his person, though it was his
home and he was not suspected of wrongdoing, and the district court upheld the
seizure, App.13, based on the warrant to search for evidence related to Williams, his
suspected involvement in a shooting and his gang affiliations. App. 28-32. The
Ninth Circuit majority did not thoroughly address the legality of the seizure of
Winn's cell phone, instead invoking the inevitable discovery exception to the
exclusionary rule. App. 5. The majority also held, however, that the warrant was
sufficiently particular because "it sufficiently described the items to be seized,
including cell phones, and there was probable cause that the cell phones would
contain evidence related to the shooting incident." App. 4. In doing so, it created a
conflict with Griffith.

21

VI.

This case presents a good vehicle for resolving the conflicts
There is no factual dispute as to the two issues raised in this petition. There

was no evidence in the record, beyond the post-search development of probable
cause, upon which an application of the inevitable discovery rule could have been
premised. Likewise, there was no explanation for the departure from the usual and
accepted course of judicial proceedings undertaken by the panel when it violated the
burden-shifting procedure set forth in Nix. Finally, the warrant for the seizure of
all electronic devices relied on an affidavit that did not allege that the suspect likely
maintained an electronic device at the residence, and it contained no limitations on
which devices within the residence might be seized. The district court and the
panel held that the warrant was supported by probable cause and drafted with
specificity. The propriety of seizing all electronic devices in a residence based
merely on probable cause that a suspect has a nexus to that residence is thus
squarely presented, in direct conflict with Griffith.

22

CONCLUSION
For the reasons stated above, Mr. Winn respectfully asks this Court to issue a
writ of certiorari.

Dated:

,

-e)2 C-D
(( 7

STEVEN
Fede

ALAR
fender
ICHMUTH*
al Public Defenders

Or

eder 1 Public Defender
ern2iistrict of California
lay Street, Suite 1350N
Oakland, CA 94612
(510) 637-3500

23

